HHS/OIG, Audit - "Follow-Up Audit of the Medicaid Drug Rebate Program In
Wyoming," (A-07-08-03106)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Follow-Up Audit of the
Medicaid Drug Rebate Program In Wyoming,"
(A-07-08-03106)
May 27, 2008
Complete Text of Report is available in PDF format (2.32 mb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
In a follow-up audit of Wyomings Medicaid drug rebate
program, we found that the State had implemented the recommendations from our
prior audit relating to the maintenance of an adequate subsidiary accounts
receivable system and had developed policies and procedures for the tracking,
billing and accounting for $0 unit rebate amounts.  Manufacturers may make their
outpatient drugs eligible for Federal Medicaid funding by entering into a rebate
agreement with the Centers for Medicare & Medicaid Services (CMS) and paying
quarterly rebates to the States.
However, the State continued to inaccurately report drug
rebate activity on the Form CMS-64.9R.  Additionally, the State did not
implement recommendations related to various accounting and dispute resolution
procedures.  Finally, the State did not establish controls over and
accountability for collecting rebates on single-source drugs administered by
physicians.
We recommended that the State work with its contractor and
CMS to determine how to correct the inaccuracies that were reported on the Form
CMS-64.9R.  We also continued to recommend that the State improve its accounting
and dispute resolution procedures and develop a system for the collection of
drug rebates on single-source drugs administered by physicians.
In written comments on our draft report, the State agency
generally concurred with our findings and recommendations and outlined its
proposed corrective actions.